     Department of Homeland Security





    FEMA Public Assistance Grant Funds Awarded to City 

          of Orlando, Florida - Hurricane Frances 





DA-12-09                                     February 2012

                                                                              Office o/Inspector General

                                                                              (J.S. Department of Homeland Stturity
                                                                              Washington, DC 20528




                                                                              Homeland
                                                                              Security
                                                 FEB 2 2 2012


MEMORANDUM FOR:                         Major P. (Phil) May
                                        Regional Administrator, Region IV
                                 .      ~e:al Em.-!>l:genc Manag9)TIent Agency
                               (--y~(~l                                 7
FROM:                            " ---'-·-'''~~~~t~~~s;eea:tor d~ral
                                        Office of Emergency Management Oversight

SUBJECT:                                FEMA Public Assistance Grant Funds Awarded to
                                        City of Orlando, Florida - Hurricane Frances
                                        FEMA Disaster Number 1545-DR-FL
                                        Audit Report Number DA-12-09

We audited public assistance funds awarded to the City of Orlando. Florida, (City) (FlPS Code
095-53000-00). Our audit objective was to determine whether the City accounted for and
expended Federal Emergency Management Agency (FEMA) grant funds according to federal
regulations and FEMA guidelines.

As of February 1, 2011, the City had received an award of $6.8 million from the Florida Division
of Emergency Management (State), a FEMA grantee, for damages resulting from Hurricane
Frances, which occurred in September 2004. The award provided 90% FEMA funding for debris
removal activities, emergency protective measures, and permanent repairs to buildings and
facilities. The award consisted of 19 large projects and 33 small projects. I

Our audit focused on $4.1 million awarded and claimed under five large projects (see Exhibit,
Schedule of Projects Audited). The audit covered the period September 3, 2004, to March 9,
2011, during which the City received $3.7 million ofFEMA funds. At the time of our audit, the
City had not submitted final claims on project expenditures to the State.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based


I   Federal regulations in effect at the time of the disaster set the large project threshold at $54,100.
upon our audit objective. We conducted this audit applying the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed City,
State, and FEMA personnel; reviewed the City’s procurement policies and procedures; reviewed
applicable federal regulations and FEMA guidelines; and performed other procedures considered
necessary to accomplish our audit objective. We did not assess the adequacy of the City’s
internal controls applicable to its grant activities because it was not necessary to accomplish our
audit objective. However, we gained an understanding of the City’s method of accounting for
disaster-related costs and its policies and procedures for administering the activities provided for
under the FEMA award.


                                     RESULTS OF AUDIT

The City accounted for and expended FEMA funds according to federal regulations and FEMA
guidelines.


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with City, State, and FEMA officials during an exit conference
held on September 21, 2011. Because the audit did not identify issues requiring further action
from FEMA, we consider this audit closed. Significant contributors to this report were
David Kimble, Felipe Pubillones, Salvador Maldonado-Avila, Larry Jones, and
Angelica Esquerdo.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website, with the exception of sensitive information identified by your
office.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6701.


cc: Administrator, FEMA
    Audit Liaison, FEMA Florida Recovery Office
    Audit Liaison, FEMA Region IV
    Audit Liaison, FEMA (Job Code G-11-026)
    Audit Liaison, DHS




                                                 2

                                          EXHIBIT

    Schedule of Projects Audited

 September 3, 2004, to March 9, 2011

      City of Orlando, Florida

 FEMA Disaster Number DR-1545-FL


 Project      Amount        Amount
 Number      Awarded        Claimed
    556      $ 1,453,035    $ 1,453,035
   3545        1,481,709      1,481,709
   9118          680,912        680,912
   6930          344,761        344,761
   8233          162,909        162,909
Total         $4,123,326     $4,123,326




                  3

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
